No. 19-914

IN THE

'upreme Court of the Zianiteb iikateo
CREDIT BUREAU CENTER, LLC AND
MICHAEL BROWN,
Cross-Petitioners,
v.
FEDERAL TRADE COMMISSION,
Cross-Respondent.

On Conditional Cross-Petition for a Writ of
Certiorari to the United States Court of Appeals
for the Seventh Circuit

REPLY BRIEF IN SUPPORT OF CONDITIONAL
CROSS-PETITION FOR A WRIT OF
CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
1,644. words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 1, 2020.

A /
Colin Casey Hog
Wilson-Epes Printing Co., Inc.

